U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 6, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Albert T. Robles v. United States of America,
S.Ct. No. 19-912

Dear Mr. Harris:
The petition for a writ, of certiorari in this case was filed on January 17, 2020. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government's response is now due on March 9, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 8, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.
.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-09 12
ROBLES, ALBERT T.
USA

ERIK S. JAFFE
SCHAERR I JAFFE LLP
1717 K STREET, NW
SUITE 900
WASHINGTON , DC 20006
202-787-1060
EJAFFE@SCHAERR-JAFFE.COM

